                                                                                 August 28, 2008




Memorandum


To:            Assistant Secretary for Fish Wildlife and Parks
               Assistant Secretary for Land and Minerals Management
               Assistant Secretary for Water and Science
               Director, Bureau of Land Management
               Director, Fish and Wildlife Service
               Director, National Park Service
               Commissioner, Bureau of Reclamation

From:          Jack Rouch
               Regional Audit Manager
                          I

Subject:       Survey of the Department of the Interior's Recreational Fees
               (Report No. C-IN-MOA-0005-2008)

        We have completed our survey work on the Recreational Fees audit at the Department of
the Interior (DOl). Specifically, we obtained information on (l) recreation fees collected in
Fiscal Years (FY) 2006 and 2007, and through March 2008 and (2) the controls over those fees
and the uses of those fees. Based on the results of our survey work, we have elected to tenninate
the audit.

         In response to prior audits conducted by both our office and by the Government
Accountability Office (GAO), DOl bureaus instituted new processes to improve the operation of
its recreational fees program. In addition, FY 2007 was the first year for the new national
interagency pass, the America the Beautiful Pass, authorized by the Federal Lands Recreation
Enhancement Act. Therefore, we believe that it would be beneficial to allow these new
processes some time to take effect, and give the pass program an opportunity to become more
established, before beginning another audit. However, we thought it prudent to bring to your
attention an issue we found during the course of our survey work.
        In GAO Report No. GAO-06-1016, dated September 2006, a recommendation was made
to the National Park Service (NPS), Bureau of Land Management (BLM), and U.S. Fish and
Wildlife Service (FWS) to:

       " ... promptly issue final regulations and implementation guidance on the fee
       program, including detailed policy and procedure guidance ... "



       In addition, in our Report No. 2002-1-0045, dated August 2002, a recommendation was
made to NPS (and found not to have been implemented in a later verification review, Report No,
W-VS-MOA-0002-2006, dated September 2006) to:

       "Require periodic regional monitoring of Fee Demo project expenditures, including
       charges to cost-of-collection accounts, to ensure that the expenditures are in accordance
       with NPS guidelines."

        As of July 2008, NPS' and FWS' regulations and implementation guidance to address
GAO's recommendation was still in draft form and had not been distributed to all sites. Included
in that guidance is NPS' revised internal review policy, which establishes provisions to address
our recommendation. While we understand that the process for issuing policies and procedures
can be lengthy, nearly two years have passed since the GAO audit report was issued.

       We bring these matters to your attention so that you can take the necessary steps to
address these issues and help ensure the recommendations are implemented in a timely manner.
Because this report does not provide formal recommendations, a written response is not required.

       We appreciate the cooperation and assistance provided by your staffs during our survey
work. If you have any questions, please do not hesitate to call Mr. Brooke Bebow, Team Leader,
or myself at (303) 236-9243.


cc:    Audit Liaison Officer, Department of the Interior
       Audit Liaison Officer, Assistant Secretary for Fish Wildlife and Parks
       Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
       Audit Liaison Officer, Assistant Secretary for Water and Science
       Audit Liaison Officer, Bureau of Land Management
       Audit Liaison Officers, Fish and Wildlife Service
       Audit Liaison Officers, National Park Service
       Audit Liaison Officers, Bureau of Reclamation
       Focus Leader for Management Control and Audit FoHow-up
